No.

 

 

IN THE

Supreme Court of the Anited States

ARGENTUM PHARMACEUTICALS LLC,

Petitioner,
v.

NOVARTIS PHARMACEUTICALS CORPORATION,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Federal Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,224 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 4, 2020.

 

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
